Department of Health and Human Services 

             OFFICE OF 

        INSPECTOR GENERAL 





   STATES’ MONITORING OF
 SUBGRANTEES IN THE FOSTER
     CARE PROGRAM: A
 DESCRIPTION OF SIX STATES’
          SYSTEMS




                     Inspector General

                      December 2004
                     OEI-05-03-00061
               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and subgrantees
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the department.

Office of Evaluation and Inspections
The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management
and program evaluations (called inspections) that focus on issues of concern to the
department, the Congress, and the public. The findings and recommendations contained
in the inspections reports generate rapid, accurate, and up-to-date information on the
efficiency, vulnerability, and effectiveness of departmental programs. The OEI also
oversees state Medicaid fraud control units, which investigate and prosecute fraud and
patient abuse in the Medicaid program.

Office of Investigations
The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. The OCIG imposes program exclusions and
civil monetary penalties on health care providers and litigates those actions within the
department. The OCIG also represents OIG in the global settlement of cases arising
under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops compliance program guidances, renders advisory opinions on OIG sanctions to
the health care community, and issues fraud alerts and other industry guidance.
∆
   A B S T R A C T




                   As part of a broad Office of Inspector General effort to review the
                   management of grant programs under the Department of Health and
                   Human Services, this report describes States’ program and fiscal
                   oversight of subgrantees in the Title IV-E foster care program. This is a
                   companion report to “Oversight of States’ Subgrantee Monitoring in the
                   Foster Care Program” (OEI-05-03-00060), which reported that
                   monitoring systems in three of the six States are inadequate.

                   For this inspection, we interviewed staff and reviewed monitoring
                   protocols and subgrantee files in six States that administer over
                   45 percent of the $5 billion that the Administration for Children and
                   Families (ACF) awards annually for the foster care program. In all six
                   States, we found that program monitoring typically consists of an onsite
                   visit to subgrantees, and fiscal monitoring typically consists of an
                   independent audit. In some States these monitoring mechanisms are
                   minimal or not implemented as intended. In addition, all six States rely
                   on rate setting to manage foster care expenditures.

                   Given the extent that States appear to be using subgrantees to carry out
                   fundamental foster care services, lax monitoring can have a significant
                   impact. States with limited monitoring systems may want to consider
                   bolstering their program and fiscal monitoring. The ACF could consider
                   assisting States in their efforts by providing expertise and guidance on
                   subgrantee monitoring, and facilitating communication among States.
                   We hope the information in this report will be helpful in developing this
                   assistance and guidance.




 OEI-05-03-00061   S TAT E S ’ M O N I T O R I N G   OF   FOSTER CARE SUBGRANTEES: A DESCRIPTIVE REPORT   i
∆   E X E C U T I V E                                     S U M M A R Y


                  OBJECTIVE
                  To describe selected States’ program and fiscal oversight of subgrantees
                  in the foster care program.


                  BACKGROUND
                  The Administration for Children and Families (ACF) awards
                  approximately $5 billion each fiscal year to States that serve about
                  800,000 children in the Federal Title IV-E foster care program. Most
                  States award some portion of their Federal foster care grant to
                  subgrantees to provide core program services, such as child placement
                  and residential care.

                  According to Federal grants management requirements under
                  45 CFR Part 74, States must oversee subgrantees to ensure that
                  subgrantees comply with Federal fiscal and program regulations, use
                  funds for authorized purposes, and achieve performance goals. The
                  ACF must ensure that States administer their foster care programs in
                  accordance with Federal regulations.

                  We conducted site visits to 6 States representing over 45 percent of Title
                  IV-E spending. We interviewed monitoring staff, reviewed relevant
                  monitoring policies and protocols, and reviewed documentation of
                  States’ monitoring for 15 to 19 subgrantee files in each State.

                  This is a companion report to “Oversight of States’ Subgrantee
                  Monitoring in the Foster Care Program” (OEI-05-03-00060), which
                  reported that monitoring systems in three of the six selected States are
                  inadequate. That report also found that ACF pays minimal attention to
                  States’ subgrantee monitoring and has little information about how
                  States monitor subgrantees. While that report provides an assessment
                  of States’ monitoring systems, this report provides descriptive
                  information on how subgrantees are being monitored in our selected
                  States. In doing so, this report seeks to assist ACF and States in
                  addressing the problems identified in the first report. Both reports are
                  part of a broader Office of Inspector General effort to review the
                  management of grant programs under the Department of Health and
                  Human Services (HHS).




OEI-05-03-00061   S TAT E S ’ M O N I T O R I N G   OF   FOSTER CARE SUBGRANTEES: A DESCRIPTIVE REPORT   ii
E X E C U T I V E                        S U              M M A R Y 




                   PROGRAM OVERSIGHT
                   In all six States, onsite visits are used to monitor subgrantees. In
                   three States, monitoring mechanisms are not implemented as
                   intended. In all six States, subgrantees’ provision of services is
                   primarily evaluated through onsite visits, including licensing visits that
                   focus on compliance with regulations. Monitoring in four States also
                   includes program site visits that focus on quality of services. In three
                   States, onsite monitoring mechanisms are not implemented as intended.
                   In these States, some subgrantees did not receive their routine licensing
                   or program site visits.
                   Outcomes-based monitoring has surfaced in some monitoring
                   systems. Five of six States demonstrated at least some movement
                   toward an outcomes-based model of monitoring. In these States, the
                   collection of outcomes data has augmented, not replaced, more
                   traditional modes of monitoring. Three of these States make limited use
                   of performance-based contracting, which involves rewarding
                   subgrantees financially for positive outcomes.


                   FISCAL OVERSIGHT
                   In all six States, fiscal monitoring is minimal. Most States rely on
                   only one mechanism, typically an independent audit, to monitor
                   subgrantees fiscally. Although three States use the more
                   comprehensive Single Audit as their fiscal monitoring mechanism, two
                   of these States’ use of the Single Audit is very limited. In some States,
                   fiscal monitoring mechanisms do not apply to all subgrantees or are not
                   functioning adequately.
                   In all six States, rate setting is used to manage foster care
                   expenditures. In all six selected States, subgrantees are funded
                   through fixed rates. Setting rates differs considerably by State, with
                   some rate-setting methodologies being far more sophisticated than
                   others. Some vulnerabilities inherent in a rate-setting system may
                   impact monitoring. These vulnerabilities include: (1) rates may be set
                   inaccurately; (2) rate-setting processes do not address excess funds or
                   unallowable costs; and (3) fixed rates of payment may create financial
                   incentives for subgrantees to decrease the quality of their services.




 OEI-05-03-00061   S TAT E S ’ M O N I T O R I N G   OF   FOSTER CARE SUBGRANTEES: A DESCRIPTIVE REPORT   iii
E X E C U T I V E                        S U              M M A R Y 




                   CONCLUSION
                   In many cases, States’ program and fiscal monitoring systems are
                   limited: monitoring either covers a limited number of subgrantees,
                   consists of only one monitoring mechanism, or is not functioning as
                   intended. Without quality monitoring, States and ACF may have little
                   assurance that subgrantees are providing quality services to children in
                   a fiscally responsible manner. States with limited monitoring may want
                   to consider bolstering their systems to ensure that all subgrantees are
                   routinely and comprehensively monitored to ensure a high quality of
                   care and the appropriate expenditure of foster care funds.

                   We found that some selected States have noteworthy aspects of their
                   subgrantee oversight, including outcomes-based monitoring and
                   sophisticated rate-setting methodologies. States could benefit from
                   learning about well-designed monitoring systems and strategies. The
                   ACF may want to consider assisting States in these efforts by providing
                   guidance and facilitating communication among States on subgrantee
                   monitoring and rate setting.




 OEI-05-03-00061   S TAT E S ’ M O N I T O R I N G   OF   FOSTER CARE SUBGRANTEES: A DESCRIPTIVE REPORT   iv
∆   T A B L E            O F            C O N T E N T S



         ABSTRACT ....................................................... i



         E X E C U T I V E S U M M A R Y . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii 



         INTRODUCTION ................................................ 1




         PROGRAM OVERSIGHT ........................................ 6

                     Onsite visits are used to monitor subgrantees; some mechanisms
                     have limitations. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6 


                     Outcomes-based monitoring . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8 



         F I S C A L O V E R S I G H T . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10 

                     Fiscal monitoring is minimal . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10 


                     Rate setting . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11 




         C O N C L U S I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16 




         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18 

                     A: Methodology: State and Subgrantee Selection . . . . . . . . . . . . . 18 


                     B: Characteristics of States’ Monitoring Systems. . . . . . . . . . . . . 20 




         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27 



         E N D N O T E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28

∆   I N T R O D U C T I O N


                  OBJECTIVE
                  To describe selected States’ program and fiscal oversight of subgrantees
                  in the foster care program.


                  BACKGROUND
                  The Administration for Children and Families (ACF) administers the
                  foster care program, which is authorized under Title IV-E of the Social
                  Security Act and which awards nearly $5 billion each fiscal year in
                  entitlement grants to States that serve about 800,000 children under
                  Title IV-E annually.1 Most States subaward some portion of their Title
                  IV-E funds to subgrantees2 to carry out core program activities, such as
                  child placement and residential care.
                  Recent Federal Interest in Subgrantee Monitoring
                  In 2001, the Secretary of the Department of Health and Human
                  Services (HHS) created an initiative to improve the management of
                  HHS grant programs. The Office of Inspector General (OIG) has also
                  undertaken a broad effort to review the control, effectiveness, and value
                  of HHS grant programs.

                  Federal stakeholders, including the Office of Management and Budget
                  (OMB) and Congress, have expressed concern that States are not
                  adequately monitoring their subgrantees, and that this may reflect a
                  lack of Federal agency oversight. Based on this concern, OMB created
                  an interdepartmental Task Force on Subrecipient Monitoring in 2002.3
                  This task force is reviewing regulations and policies to identify whether
                  Federal guidance and oversight of subgrantee monitoring is adequate.
                  Congress has also shown its concern by requesting reviews of
                  subgrantee monitoring in other HHS programs.4
                  This is a companion report to “Oversight of States’ Subgrantee
                  Monitoring in the Foster Care Program” (OEI-05-03-00060), which
                  found that monitoring systems in three of the six selected States are
                  inadequate. That report also found that ACF pays minimal attention to
                  States’ subgrantee monitoring and has little information about how
                  States monitor subgrantees. While that report provides an assessment
                  of States’ monitoring systems, this report provides descriptive
                  information on how subgrantees are being monitored in our selected
                  States. In doing so, this report seeks to assist ACF and States in
                  addressing the problems identified in the first report.


OEI-05-03-00061   S TAT E S ’ M O N I T O R I N G   OF   FOSTER CARE SUBGRANTEES: A DESCRIPTIVE REPORT   1
I N T R O D        U C T             I O N


                    Increased Use of Subgrantees in the Foster Care Program
                    According to a recent study, nearly all States use subgrantees to provide
                    core foster care services to at least some of their foster children.5
                    Foster care services provided by subgrantees include child placement
                    services, such as recruiting and training foster families, placing children
                    with specific families, and arranging services for these children while in
                    their placements. Subgrantees may also provide services related to
                    residential care, using professional staff to care for foster children in
                    group homes, residential institutions or schools, mental health or other
                    specialty treatment facilities, and emergency shelters.

                    The increasing privatization of foster care services has led to concerns
                    about the accountability of subgrantees within the foster care program.
                    Recent State audits have substantiated the need for concern. In 2000,
                    Ohio’s State Auditor found that more than $9 million in foster care
                    funds had been misspent by private agencies on housing and automobile
                    leases, private jet fuel, and other unallowable purchases. These audits
                    uncovered “lax control over Federal foster care money, a lack of
                    financial and program monitoring, abuse of public funds, and the
                    compromised care of some children.”6
                    Without adequate oversight of foster care subgrantees, the safety and
                    welfare of thousands of children a year are potentially jeopardized and
                    millions of dollars in annual Federal funds are vulnerable to abuse.
                    States’ Monitoring of Subgrantees
                    In HHS, responsibilities for State administration of Federal grant funds
                    are delineated by two sets of Federal requirements:
                    o 	 the Uniform Administrative Requirements for Awards and
                            Subawards (45 CFR Part 74),7 and
                    o 	 the Single Audit Act (implemented by OMB Circular A-133).

                    Specifically, 45 CFR Part 74 contains HHS grants management
                    regulations and incorporates OMB Circular A-133 by reference.

                    These Federal grants management requirements8 require States to:
                    o 	 Ensure that subgrantees are complying with program
                            requirements and achieving performance goals.
                    o 	 Ensure subgrantees are complying with fiscal requirements, such
                            as having appropriate fiscal controls in place, and are using
                            awards for authorized purposes.



 OEI-05-03-00061    S TAT E S ’ M O N I T O R I N G   OF   FOSTER CARE SUBGRANTEES: A DESCRIPTIVE REPORT   2
I N T R O D 
U C T                  I O N


                   States can ensure that subgrantees are meeting these requirements
                   through a variety of mechanisms, including progress reports, site visits,
                   financial reports, independent (third party) financial audits, and/or
                   internal (State-conducted) financial audits.

                   Under OMB Circular A-133, certain subgrantees must have a specific
                   type of independent audit, called a Single Audit. Single Audits include
                   a traditional financial audit of subgrantees’ basic financial statements,
                   as well as an auditor’s report on subgrantees’ internal controls and an
                   opinion on subgrantees’ compliance with requirements of major Federal
                   programs.

                   Subgrantees exempt from the Single Audit include: all for-profit
                   subgrantees, and non-profit subgrantees receiving less than $500,000 in
                   total Federal awards, and “vendors.” States use Federal guidelines
                   delineated in OMB Circular A-133, §__.210 to determine whether
                   subgrantees are “subrecipients” and thus subject to a Single Audit, or
                   “vendors” and not subject to a Single Audit.

                   These guidelines characterize “subrecipients” as subgrantees who carry
                   out the program: they may determine eligibility, make programmatic
                   decisions, have their performance judged against the program
                   objectives, and they must comply with program requirements.
                   “Vendors” are characterized as subgrantees who provide goods and
                   services that are ancillary to the operation of the program: they provide
                   goods and services within normal business hours to many different
                   purchasers, operate in a competitive environment, and are not subject
                   to program compliance requirements. The guidelines direct States to
                   use their judgment in making this determination. We found that some
                   States considered foster care subgrantees to be “subrecipients,” and
                   other States considered subgrantees providing the same core services to
                   be “vendors.”


                   SCOPE
                   The intent of this report is to provide descriptive information regarding
                   monitoring of subgrantees who provide child placement services or
                   residential care in six States. This report does not attempt to assess
                   whether monitoring mechanisms include appropriate measures or cover
                   appropriate issues. Nor does it assess subgrantees’ fiscal and program
                   performance. Finally, it does not examine subgrantees that provide only
                   training, adoption, or independent living services under the Title IV-E
                   program.

 OEI-05-03-00061   S TAT E S ’ M O N I T O R I N G   OF   FOSTER CARE SUBGRANTEES: A DESCRIPTIVE REPORT   3
I N T R O D        U C T             I O N 




                    METHODOLOGY
                    We reviewed six States’ program and fiscal oversight of foster care
                    subgrantees through onsite interviews with State and county
                    monitoring staff, a review of monitoring protocols and tools, and a
                    review of subgrantee monitoring files.

                    Our States included Texas, Michigan, Massachusetts, North Carolina,
                    Pennsylvania, and California. In four of the States, the foster care
                    program was directly administered by the State. In two of the States,
                    the program was jointly administered by the State and the counties. In
                    these States, we selected the two counties serving the largest number of
                    Title IV-E children for our review.

                    Overall, the 6 States comprise more than 45 percent of the Federal
                    fiscal year (FY) 2002 Title IV-E funds and are located in 6 of the 10 ACF
                    regions. The States and counties we selected funded more than 1,500
                    foster care subgrantees during their most recent fiscal year.

                    For a further discussion of our selection of States and subgrantees,
                    please see Appendix A.
                    Staff Interviews. To understand the complexities of State and county
                    monitoring systems, we conducted onsite interviews with staff
                    responsible for monitoring subgrantees. Typically, this included
                    interviews with program, fiscal, and licensing staff. In county-
                    administered States, we interviewed State and county staff responsible
                    for monitoring subgrantees in our selected counties.

                    We used structured interview guides to collect information about State
                    and county monitoring of subgrantees, focusing in-depth on each
                    monitoring mechanism. We also used these interviews to gather
                    information about other State and county processes, including
                    monitoring of outcomes, use of performance-based contracting, and
                    monitoring of costs and payments through rate setting and cost-based
                    reimbursement. We supplemented our interviews with a review of
                    monitoring policies, protocols, and guidance.
                    Subgrantee File Review. To assess whether or not State and county
                    monitoring systems were functioning as intended, we selected and
                    reviewed 15 to 19 subgrantees in each State from State FY 2003. In the
                    county-run States, we selected 8 subgrantees from each selected county,
                    for a total of 16 subgrantees in the State. To represent the various
                    types of subgrantees, we selected both low- and high-volume child
                    placement agencies, as well as low- and high-volume residential care

 OEI-05-03-00061    S TAT E S ’ M O N I T O R I N G   OF   FOSTER CARE SUBGRANTEES: A DESCRIPTIVE REPORT   4
I N T R O D        U C T             I O N


                    facilities in each State or county. Overall, we reviewed files for
                    98 subgrantees.

                    For our file review, we used a structured data collection instrument to
                    examine evidence of monitoring, such as site visit reports, audit reports,
                    financial reports, and licensing reports. We did not examine evidence of
                    rate setting or focus on outcomes or performance-based contracting in
                    our review of subgrantee files.
                    Limitations of Data
                    Because we did not randomly select States, our findings cannot be
                    projected to the larger universe of States. They do, however, reflect
                    subgrantee monitoring in States that account for over 45 percent of the
                    Title IV-E foster care funds.



                    This inspection was conducted in accordance with the Quality
                    Standards for Inspections issued by the President’s Council on Integrity
                    and Efficiency.




 OEI-05-03-00061    S TAT E S ’ M O N I T O R I N G   OF   FOSTER CARE SUBGRANTEES: A DESCRIPTIVE REPORT   5
∆
 F P I   RN OD G
                 I NR GA S M                   O V E R S I G H T



                                                                                               In all six selected States,
              In all six States, onsite visits are used to
                                                                                               subgrantees’ provision of
                 monitor subgrantees. In three States,                                         services is primarily evaluated
                        monitoring mechanisms are not                                          through onsite visits. In three
                              implemented as intended.                                         States, these monitoring
                                                                                               mechanisms are not operating
                                                                                               as intended.
                            Onsite foster care licensing visits and program site visits are the primary
                            mechanisms used to monitor subgrantees.
                            All six selected States rely on onsite monitoring to oversee subgrantees’
                            provision of services. Onsite monitoring may include case file reviews,
                            interviews with children and staff, a review of staff training and
                            qualifications, and observation of the condition and appropriateness of
                            the facility.



             Table 1: Types of Program Monitoring Mechanisms Used in Six States

                                                              State A State B State C State D State E                  State F

               Licensing Visits                                     X          X           X           X           X     X

               Comprehensive Program
               Site Visits
                                                                               X           X                       X     X

               Targeted Program Site
               Visits
                                                                                           X                             X

             Source: OEI State Site Visit Data


                            In all six States, monitoring includes licensing site visits. As seen in Table 1,
                            all six of our selected States use routine licensing visits to monitor
                            foster care subgrantees. Subgrantees are licensed annually in three
                            States, and every 2 years in the other three States. Licensing is fairly
                            similar across States; visits focus on compliance with regulations, and
                            are usually conducted by a State licensing department separate from
                            the foster care department. Licensing site visits may include assessing
                            compliance with regulations related to safety and protection of civil
                            rights, as well as a review of numerous program issues, such as case
                            record documentation, service planning process, health and treatment
                            services, and discipline.



       OEI-05-03-00061      S TAT E S ’ M O N I T O R I N G   OF   FOSTER CARE SUBGRANTEES: A DESCRIPTIVE REPORT             6
P R O G R A M                 O V E R S I G H T


                   In four States, monitoring also includes program site visits. In addition to
                   licensing visits, comprehensive program site visits are used in four
                   States to ensure program accountability. In two of these States,
                   subgrantees receive more than one type of program site visit. They
                   receive both a comprehensive program visit and a more targeted
                   program site visit. These targeted visits review such things as service
                   utilization and outcomes or are geared toward identifying issues in need
                   of technical assistance. (See Table 1.)

                   While comprehensive program site visits and licensing site visits are
                   generally similar in that they both tend to use the same methods (policy
                   and record reviews, interviews, and observation) and have some overlap
                   in content, there are some key distinctions. The purpose of licensing
                   site visits is to assess compliance with laws and regulations, while the
                   purpose of program site visits is to ensure that children receive quality
                   services. Program site visits may also include a technical assistance
                   component. Further, in county-administered States, such as State C
                   and State E, licensing visits are conducted by State staff and cover
                   subgrantees across the State, and program site visits are conducted by
                   county staff and may vary by county.

                   Monitoring staff in licensing and program departments in four States
                   reported that they communicate with each other and coordinate their
                   monitoring efforts to some extent. In a fifth State, staff indicated that
                   program and licensing departments do not coordinate and cited this lack
                   of coordination as one of the barriers they face in trying to monitor
                   subgrantees effectively.
                   In three States, program or licensing visits are conducted less frequently than
                   annually. Three States’ onsite visits are conducted at least annually;
                   however, visits in the remaining three States are less frequent. State B
                   only requires licensing visits to its subgrantees every 2 years and
                   program site visits every 12 to 18 months. In State D, all subgrantees
                   receive one licensing visit every other year and no program site visit.
                   Program monitoring staff in this State rely heavily on a network of
                   State and local oversight entities to provide referrals for any
                   programmatic problems, rather than establishing regular program site
                   visits. In State A, most subgrantees are licensed only once every
                   2 years. Some subgrantees in this State receive licensing site visits, but
                   for some subgrantees, their biennial licensing only consists of a desk
                   review of submitted materials.



 OEI-05-03-00061   S TAT E S ’ M O N I T O R I N G   OF   FOSTER CARE SUBGRANTEES: A DESCRIPTIVE REPORT   7
P R O G R A M                 O V E R S I G H T                                   





                   In three States, onsite monitoring mechanisms are not implemented as
                   intended.
                   In three States, licensing or program monitoring is not implemented as
                   intended. For example, in State C, licensing is designed to include
                   annual site visits for all subgrantees, but less than half of the selected
                   subgrantees actually received this annual licensing visit. In one county
                   in this State, licensing is the only program monitoring mechanism for
                   nearly all child placement agencies. In this county, half of the
                   subgrantees we reviewed did not receive a site visit and thus had not
                   been relicensed, resulting in foster children being cared for by
                   unlicensed providers. State licensing staff indicate that they have
                   limited resources and thus give priority to investigating complaints or
                   problems over conducting their annual licensing visits.

                   Program monitoring is not implemented as intended in State B, where
                   staff were unable to provide documentation of program visits for more
                   than half of the subgrantees selected. This State also indicated that
                   they lack resources and have lost significant staff recently.

                   Finally, our review found that one county in State E did not meet its’
                   own program site visit goals, although county staff actually visited all
                   selected subgrantees at least annually. County staff intended to visit
                   all subgrantees quarterly; however, we found that only half of the
                   selected subgrantees were visited quarterly.



                                                              Five of the six selected States
   Outcomes-based monitoring has surfaced in                  demonstrated at least some
                  some monitoring systems.                    movement toward an outcomes-
                                                              based model of monitoring. In
                   each of these States, the collection of outcomes data has augmented, not
                   replaced, more traditional monitoring mechanisms, such as site visits.
                   Traditionally, States have paid subgrantees based on the services they
                   provide and have monitored their processes. In an outcomes-based
                   system, States monitor the outcomes of these processes. Thus, States
                   encourage subgrantees to focus more on outcomes and less on processes.
                   States may take additional steps to reinforce a focus on outcomes by
                   offering incentive payments for positive performance or structuring
                   reimbursement around performance, as in performance-based
                   contracting.


 OEI-05-03-00061   S TAT E S ’ M O N I T O R I N G   OF   FOSTER CARE SUBGRANTEES: A DESCRIPTIVE REPORT   8
P R O G R A M                 O V E R S I G H T


                   In three States, performance-based contracting is used on a limited
                   basis. In all three States, subgrantees under these contracts are paid a
                   relatively low monthly fee per foster child, with the understanding that
                   they will receive additional funding once they meet specified
                   performance outcomes. These outcomes may include successfully
                   transitioning clients to a less restrictive level of care, sustaining a child
                   in a placement for a certain length of time, and successfully moving a
                   child into adoption. Subgrantees under performance-based contracts
                   are typically penalized for negative outcomes, namely when a foster
                   child is returned to the system from an unsuccessful placement. In this
                   situation, the subgrantee shoulders the burden of finding an alternate
                   placement for the child without any additional monthly payments from
                   the State.

                   In three States, monitoring staff have started to collect outcomes but do
                   not use or analyze the information they collect. For instance, State F
                   determines the number of positive and negative outcomes each
                   subgrantee has per year. State F plans to expand the number and types
                   of outcomes it collects and move to a performance-based contracting
                   system by FY 2006. State D uses performance-based contracting for
                   some subgrantees and has started to collect outcomes for all others, but
                   does not plan to use them until the next contract cycle. In addition, one
                   county in State C collects specific outcomes information related to
                   education and independent living skills. The county does not currently
                   have plans to hold subgrantees accountable for their outcomes.




 OEI-05-03-00061   S TAT E S ’ M O N I T O R I N G   OF   FOSTER CARE SUBGRANTEES: A DESCRIPTIVE REPORT   9
 In all six States , fiscal monitoring is minimal. .                   In five selected States, fiscal
                                                                       monitoring consists of only one
                                                                       primary mechanism. In four
                      States , an annual independent audit is the only systemic means of
                      monitoring the fiscal functioning of their subgrantees. A fih State
                      minimally supplements its annual independent audits with additional
                      internal financial audits of approximately 10 residential care facilities
                      each year. Finally, a sixth State' s fiscal monitoring consists of an
                      annual review of subgrantees ' financial information , such as fiancial
                      statements , billngs and budgets , and an onsite review of selected
                      financial records for some subgrantees.
                      Of the five States that rely on independent audits , two States use a
                      traditional fiscal audit as opposed to the more comprehensive Single
                      Audit. These States have classifed their foster care sub grantees as
                       vendors " which exempts them from Single Audit requirements. By not
                      employing the Single Audit , these States limit their financial oversight
                      of Title IV-E funds to a review of the basic financial controlsofthe
                     sub grantee provided by a fiancial audit. States are not
                                                                               provided with
                     the more specifc review of sub grantees ' use of program funds that
                     would be conducted in a Single Audit.
                     Three States use the Single Audit to monitor sub
                                                                                     grantees fiscally;
                     however, two States ' use of the Single Audit is very liinited. State B
                     only requires that a Single Audit be performed on subgrantees for their
                     fist yeaI\ providing servces. 9 Of the 19 subgrantees
                                                                                            we reviewed from
                     this State , the Single Audit was only required for 4 subgrantees. State
                     D does not correctly identif the grant as Title IV-E funds. Instead
                                                                                          , it
                     identifies foster care funds as Social Services Block Grant funds.
                     Because ofthis error, auditors review the sub grantee
                                                                             s compliance with
                     Social Services Block Grant requirements and not Title IV-E
                     requirements. Only State E uses the Single Audit for all subgrantees
                     and for Title IV-E funds. Both State D and one county in State E
                     supplement the Single Audit by requiring additional auditor opinions
                     and subgrantee. financial statements.
                     In some States , fiscal monitoring mechanisms do not apply to all
                     subgrantees or are not functioning as intended.
                     Two States ' fiscal monitoring abilities are limited due to the fa:c that
                     they do not require an audit or onsite fiscal review of all of their
                      ubgrantees. In one State , subgrantees providing mental health

OEI. 05. 03- 00061   STATES ' MONITORING OF FOSTER CARE SUBGRANTEES: A DESCRIPTIVE REPORT
F I S C A L            O V E R S I G H T



                          services are not subject to an audit or any other fiscal review related to
                          their Title IV-E funds. Of the 16 subgrantee files we reviewed in this
                          State, 6 subgrantees were not required to submit audits. In the other
                          State, whether or not a subgrantee’s finances are reviewed onsite and
                          the extent of that review is based on an assessment of the subgrantee’s
                          risk. All high- and medium-risk subgrantees receive a site visit, while
                          2 percent of low-risk subgrantees are selected for a site visit. All other
                          subgrantees receive a desk review of submitted financial information.
                          Of the 16 subgrantees that we selected, 6 subgrantees did not receive an
                          onsite fiscal review.

                          We also found that two States’ fiscal monitoring is not functioning as
                          intended. In one State, we found that many selected subgrantee files
                          did not include an audit. Further, staff in both of these States perform
                          only a cursory review of submitted audits, limiting the usefulness of the
                          audit as an oversight mechanism. One State has program staff review
                          the audit to make sure “the numbers make sense,” even though the staff
                          have not received any financial training. Our review of 16 subgrantee
                          files in this State found no evidence that audits had been reviewed even
                          minimally. The other State only reviews audits to detect severe
                          problems with a subgrantee, such as bankruptcy.
                          Staffing and resources are not being invested in fiscal oversight.
                          In the face of States’ budget crises, States have drastically reduced
                          fiscal monitoring staff. Four States reported severe limitations in fiscal
                          monitoring due to lack of staff.

                          Internal audit departments have been especially affected by budget
                          cuts. One State completely cut its internal audit division due to budget
                          issues. Audit offices in three States have only enough resources to
                          perform internal audits in response to complaints or problems, but not
                          enough resources to proactively monitor subgrantees. Funding cuts in
                          two States have left audit divisions without enough staff to provide even
                          reactive internal audits for the Title IV-E program.



   In all six States, rate setting is used to manage           One way States can manage their
                            foster care expenditures.          foster care expenditures is to use
                                                               rate setting to establish
                          reasonable rates of payment for subgrantees. Another way States can
                          manage their expenditures is through a cost-based system of
                          reimbursement. Under this system, States reimburse each subgrantee


     OEI-05-03-00061      S TAT E S ’ M O N I T O R I N G   OF   FOSTER CARE SUBGRANTEES: A DESCRIPTIVE REPORT   11
F I S C A L         O V E R S I G H T


                   for their actual costs based on itemized invoices that subgrantees
                   submit to the State.

                   In all six of our selected States, the majority of subgrantees are funded
                   through a rate-setting system of payment rather than a cost-based
                   system of reimbursement. Two of the six States also use a cost-based
                   system of reimbursement for a small minority of their subgrantees.
                   These States use cost-based reimbursement in cases where it is
                   particularly difficult to establish rates, such as for new subgrantees,
                   subgrantees providing new services, or for services with unpredictable
                   costs.

                   Under a rate-setting system, the State pays subgrantees based on a
                   specific rate they have established prior to the award period, rather
                   than retrospectively reimbursing them based on subgrantees’ reported
                   expenses. The State typically determines a per diem/per child rate for
                   the package of services subgrantees will be contracted to provide. For
                   example, the State’s rate for residential facilities would encompass the
                   expenses associated with shelter, food, and administrative overhead. To
                   pay a particular subgrantee, the State would multiply this set rate by
                   the number of children served and by the number of days for which care
                   was provided.
                   Rate-setting processes vary by State, but are used to manage foster care
                   expenditures.
                   While the rate-setting process differs considerably by State, the goal is
                   the same: to establish a fair, but economical payment that only reflects
                   allowable Title IV-E costs. Rate-setting systems in the six selected
                   States appear to vary along a continuum in their level of sophistication.

                   At one end of the spectrum are certain rates set using only the most
                   minimal data. In one of the selected States, rates for certain
                   subgrantees are based solely on the amount of funding the State has
                   available. This State does not take into account the costs associated
                   with caring for children in foster care when setting these rates. In
                   another State, rates for certain subgrantees are based solely on
                   childcare costs as reported by the U. S. Department of Agriculture.
                   However, both of these States use more complex methodologies for
                   setting other rates; for example, rates for subgrantees serving children
                   whose needs require advanced levels of care.

                   At the other end of the spectrum are certain rates set using
                   sophisticated approaches. Three of the selected States base their rates
                   on more complex estimations of actual cost. States review annual or

 OEI-05-03-00061   S TAT E S ’ M O N I T O R I N G   OF   FOSTER CARE SUBGRANTEES: A DESCRIPTIVE REPORT   12
F I S C A L         O V E R S I G H T


                   biennial cost reports submitted by their subgrantees. These reports
                   itemize foster care and administrative costs in great detail. In addition,
                   some States require supplemental documentation, such as independent
                   audit statements and time studies assessing staff time spent on
                   allowable foster care activities.

                   Once States estimate costs, three States establish a general set of rates
                   for all subgrantees based on the intensity of care provided by the
                   subgrantee or the age of the child. Alternately, rates in two States are
                   set for each individual subgrantee.

                   In several States, final rates are determined by cost and budget
                   considerations and may not reflect subgrantees’ estimated expenses.
                   For instance, one State imposes a cap on individual rates that no
                   individual facility rate may exceed, regardless of its expenses. Another
                   State requires new subgrantees to estimate costs up front in order to set
                   a rate. The subgrantee is held to that rate, even if its actual expenses
                   exceed the estimated rate. Finally, in three of the six States, the State
                   legislature makes the final rate determination based on the State’s
                   available funding.
                   The rate-setting process may present vulnerabilities.
                   While all six States have a significant interest in establishing accurate
                   rates and some dedicate significant resources to doing so, vulnerabilities
                   may still exist.
                   Rates may be set inaccurately. When States attempt to estimate
                   subgrantees’ expenses to provide a basis for the State rate, they run the
                   risk that cost reports do not accurately reflect reasonable, actual costs.
                   For instance, cost reports may be falsified or enhanced by subgrantees
                   seeking to hide unallowable costs or excess funds. Cost reports could
                   also reflect unreasonable costs spent by subgrantees who are poor fiscal
                   managers or subgrantees who failed to obtain a fair purchase price for
                   goods or services, paying more than necessary.

                   Although States typically use cost estimates to develop rates, it can be
                   difficult to ensure that the rates set by States appropriately reflect
                   accurate, reasonable expenses. One reason for this is that costs are
                   likely to vary across subgrantees. Larger subgrantees may be better
                   able to reduce costs by purchasing in large quantities than small
                   subgrantees. Subgrantees in urban areas may pay considerably higher
                   fixed costs than subgrantees in rural areas. Further, external factors,
                   such as State budget shortfalls and limits imposed by State legislatures,


 OEI-05-03-00061   S TAT E S ’ M O N I T O R I N G   OF   FOSTER CARE SUBGRANTEES: A DESCRIPTIVE REPORT   13
F I S C A L         O V E R S I G H T


                   may require that rate-setting staff impose arbitrary caps on rates, thus
                   overriding efforts to reflect reasonable, allowable costs in their rates.

                   To mitigate some of these vulnerabilities, some of the six selected States
                   use traditional fiscal monitoring mechanisms as part of their rate-
                   setting processes. For instance, two States use audits to ensure the
                   accuracy of cost reports. One of these audits verifies cost report data
                   line item by line item.
                   Rate setting does not typically address excess funds and/or unallowable costs.
                   While rate setting is used to ensure that rates are reasonable, and
                   therefore, grant funds are expended economically, it does not function to
                   ensure that funds are actually expended only for reasonable and
                   allowable costs. Subgrantees could potentially spend funds on items or
                   services that are unallowable under Title IV-E statute or other Federal
                   regulations. Further, Federal grants management regulations prohibit
                   profit,10 yet subgrantees may receive excess funding if rates exceed
                   subgrantees’ actual costs. This may be unavoidable when paying
                   various subgrantees the same rate, since some subgrantees’ costs are
                   likely to exceed the rate, while others’ costs are likely to fall short of the
                   rate.

                   Despite this potential vulnerability, three of our six States’ rate-setting
                   processes are not designed to recoup inappropriately spent or excess
                   funds. If these States identify that subgrantees have received excess
                   funds, the only action they take is to readjust the rate during the next
                   cycle of rate setting. Even when States specifically identify subgrantees
                   that did not provide services commensurate with their established
                   rates, States typically do not recoup excess funds; they simply adjust
                   the rate when problems are discovered.

                   In three States, rate setting includes a mechanism designed to recoup
                   funds; however, only one county in one of these States has a mechanism
                   that applies to more than a small subset of subgrantees. This county
                   requires subgrantees to submit an auditor’s statement calculating the
                   amount by which funding exceeded or fell short of subgrantees’
                   expenditures. If auditors identify excess funds, county fiscal staff can
                   require subgrantees to repay this amount. Two other States have some
                   mechanism for recoupment, but only for subgrantees in the first year of
                   a new contract, or for a small sample of subgrantees selected for a
                   targeted audit each year.

                   While the extent of this vulnerability is unknown, subgrantees in at
                   least three States have been identified as using foster care funds

 OEI-05-03-00061   S TAT E S ’ M O N I T O R I N G   OF   FOSTER CARE SUBGRANTEES: A DESCRIPTIVE REPORT   14
F I S C A L           O V E R S I G H T                                     





                        inappropriately. In two of the six selected States, anonymous
                        allegations of misspending led States to discover that some subgrantees
                        spent hundreds of thousands of dollars on items that were unallowable
                        under State and Federal regulations. In addition to these cases, in
                        2000, the Ohio Auditor of State found that more than $9 million in
                        foster care funds had been misspent by private agencies on housing and
                        automobile leases, private jet fuel, and other egregious purchases.
                        Notably, these abuses of funds were discovered through special
                        inquiries, not through the States’ rate-setting process or routine fiscal
                        monitoring tools.
                        Rate setting may impact the quality of foster care services. One vulnerability
                        inherent in a rate-setting system is a reduction in the quality of foster
                        care services. Because subgrantees are reimbursed based on the
                        number of children they serve and not on the amount of resources they
                        expend, there is a financial incentive for subgrantees to serve the
                        greatest number of children for the least amount of money. In addition,
                        if States establish rates that are too low, subgrantees may legitimately
                        not have enough money to provide children with quality services. To
                        mitigate this vulnerability, States must rely on program monitoring to
                        ensure that subgrantees are providing quality services at a level
                        commensurate with their assigned rate.

                        Staff in two States mentioned the impact poor fiscal performance could
                        have on the quality of services. For example, staff in one county
                        identified a situation where children were missing crucial
                        appointments, such as court and doctor visits, because the facility’s van
                        broke down, and there were no funds available to repair it.




    OEI-05-03-00061     S TAT E S ’ M O N I T O R I N G   OF   FOSTER CARE SUBGRANTEES: A DESCRIPTIVE REPORT   15
                     In some States , program and fical monitorig is limited. In these
                     cases , monitoring either covers a limited number of subgrantees
                     consists of only one monitoring mechanism , or isn t functioning as
                     intended. Without quality monitoring, States and ACF have no
                     assurance that sub grantees are providing appropriate , quality services
                     to children in a fiscally responsible manner- The States and counties we
                     selected funded more than 1 500 foster care sub grantees in their most
                     recent fical year.Given the extent that sub grantees are used to carr
                     out fundamental foster care servces , lax monitoring can have a
                     signifcant impact-

                     To improve their oversight of subgrantees , States with limited
                     monitoring could bolster their program and fical                  monitoring
                     mechanisms by ensuring that all subgrantees are routinely and
                     comprehensively monitored to ensure a high quality of care and the
                     appropriate expenditure of foster care funds. Additionally, these States
                     could add a means to recoup funds to their current rate- setting systems
                     to address any subgrantees that use Federal funds for unallowable costs
                     or retain excess funds.

                     States could benefit from learning about each other s monitoring
                     systems and oversight strategies. We found that some States have
                     noteworthy aspects within their subgrailtee oversight systems. Some
                     States have sophisticated program- monitoring mechanisms that include
                     outcomes-based monitoring through performance-based contracting.
                     Alo , some States combine intricate rate- setting methodologies with
                     traditional fiscal- monitoring mechanisms to reduce vulnerabilties
                     inherent in the rate      setting process.

                     We encourage ACF to assist States by providing guidance and
                     facilitating communication between States on subgrantee monitoring
                     and rate setting. Further information and guidance on good rate setting
                     and subgrantee monitoring practices would provide much needed
                     direction to struggling States. We encourage ACF to consider
                     developing expertise at the regional level on these practices
                     particularly those related to outcomes monitoring, including
                     performance-based contracting, and rate setting. Further , ACF could
                     consider holding regional or interregional conference calls to discuss
                     existing and emerging practices , and encouraging States to utilze

OEI. 05- 03- 00061   STATES ' MONITORINO OF FOSTER CARE SUBGRANTEES: A DESCRIPTIVE REPORT
C O   N C L        U S I O             N


                     National Resource Centers, such as the Center on Organizational
                     Improvement, for technical assistance.




 OEI-05-03-00061     S TAT E S ’ M O N I T O R I N G   OF   FOSTER CARE SUBGRANTEES: A DESCRIPTIVE REPORT   17
                      METHODOLOGY: SELECTION OF STATES AND
                      SUBGRANTEES
                      To understand States' monitoring of subgrantees we conducted site
                                                                                         visits
                      in six States. This appendix provides greater detail regarding our
                      selection of States and subgrantees.
                      State Selection
                      We selected the six study States based on the following factors:
                      (1) maximizing coverage of Title IV-E funds; (2) representing both State-
                      adminitered and county- administered    States; (3) maximizing coverage of
                      ACF regions; and (4) avoiding States participating in Child and Famiy
                      Servces Reviews or in the OIG region VII's case study of eight States
                      foster care programs. In our final selection of States , we included 3 of the
                      11 States that have a county- administered              system.

                      Our six States include three State- administered systems: Texas
                      Michigan , and Massachusetts; and three county-adminitered systems:
                      California , Pennsylvania , and North Carolina. In our county.
                      administered States , we selected the two largest counties based on the
                     number of Title IV-E children served. In California , we selected Los
                     Angeles and San Diego counties , and in Pennsylvania , we selected
                     Philadelphia and Allegheny counties.               We did not select any counties in
                     North Carolina due to the State s exclusive role in monitoring
                     subgrantees. Even though the counties in North Carolina are responsible
                     for administering the foster care program , they are not responsible for
                     monitoring the foster care subgrantees.
                     Subgrantee Selection
                     Due to the intensity of our case fie review , we limited the number of
                     sub grantee files selected. We estimated that we could complete between
                     15 to 20 case file reviews in each State. We used the following procedure
                     to ensure that our selection of subgrantees included representation of
                     both child placement agencies and residential facilities , and included
                     sub grantees that served a high volume of Title IV- E children
                                                                                    , as well as
                     those that served a low volume of Title IV-E children. Our pre-inspection
                     research indicated that States '
                                                    monitoring practices might vary between
                     these diferent types of subgrantees.
                     From each State and county selected , we requested a list of all foster care
                     sub grantees providing child placement or residential care to Title IV-E
                     children in State FY 2003. To select subgrantees we stratified each
                     subgrantee list , first by type of subgrantee (i. , child placement agencies
OEI. 05. 03. 00061   STATES ' MONITORING OF FOSTER CARE SUB GRANTEES: A DESCRIPTIVE REPORT
A   P   P E N D       I X ~            A


                      and residential facilities) and then by the number of Title IV-E children
                      served. To stratify by number of children served, we calculated the
                      average number of children served, and then designated subgrantees as
                      low or high volume, according to where they fell in relation to the average.
                      We then randomly selected subgrantees from each of the four groups:
                      low-volume child placement agencies, high-volume child placement
                      agencies, low-volume residential facilities, and high-volume residential
                      facilities.

                      In each State we randomly selected 16 foster care subgrantees. In county-
                      run States, we randomly selected eight subgrantee files in each of the two
                      selected counties. In State D, one subgrantee did not fit our sampling
                      criteria and was discarded in our analysis. In State B, a few selected
                      subgrantees had more than 1 contract with the State, bringing the total
                      number of files reviewed up to 19. (See Table 2.)

                               Table 2: Sample and Universe of Subgrantees
                               Serving Title IV-E Eligible Children During States'
                               Fiscal Year 2003
                                            State/County                                  Sample        Universe
                                  State A                                                   16            472
                                  State B                                                   19            132
                                  State C, County 1                                          8            224
                                  State C, County 2                                          8             68
                                  State D                                                   15            172
                                  State E, County 1                                          8            132
                                  State E, County 2                                          8             49
                                  State F                                                   16            263
                                  Total Subgrantees                                         98          1,512

                      Although State D is primarily State-administered, a portion of the foster
                      care program is privately administered. For the purposes of this study,
                      we focused only on the portion of State D’s program that is State-
                      administered. State D contracts with subgrantees through a central office
                      and through local offices and regional offices. Our file review included
                      subgrantees hired by all three types of entities. The vast majority of the
                      subgrantees were selected from the State’s central office, as this entity
                      has significantly more subgrantees than any of the regional or area
                      offices.




    OEI-05-03-00061   S TAT E S ’ M O N I T O R I N G   OF   FOSTER CARE SUBGRANTEES: A DESCRIPTIVE REPORT         19
∆    A P P E N D I X                             ~            B



                      CHARACTERISTICS OF MONITORING SYSTEMS IN SIX STATES
                      To provide a more complete description of monitoring systems used by
                      each State or county, this appendix describes routine monitoring
                      mechanisms used in each State to ensure program and fiscal integrity.
                      Each table contains three descriptive elements: intended coverage,
                      intended frequency, and actual utilization.

                      First, intended coverage indicates the set of subgrantees for which the
                      mechanism is supposed to be used. In some cases this will be “all,” as
                      some mechanisms apply to all subgrantees. However, some States use
                      different monitoring mechanisms for certain subsets of subgrantees
                      depending on subgrantee characteristics, such as type of services
                      provided.

                      The second column indicates the intended frequency at which the
                      monitoring mechanism is supposed to be used.

                      The actual utilization column describes whether the mechanism is
                      meeting its intended coverage and intended frequency listed in the first
                      two columns. The numerator is the number of selected subgrantees that
                      were actually monitored using the mechanism at the intended frequency.
                      The denominator is the number of subgrantees that were intended to be
                      monitored using the mechanism at the intended frequency.
                                  Example:

                                  We selected 16 subgrantees in State X.
                                  Intended Coverage: State X intends to conduct program site visits
                                  for residential facilities only. We selected eight residential facilities.
                                  Intended Frequency: State X intends to conduct program site visits
                                  annually.
                                  Actual Utilization: Only four residential facilities actually received
                                  a site visit annually. Thus, for this mechanism the utilization
                                  column would read 4/8. (Four residential facilities actually received
                                  a site visit when eight were supposed to receive a site visit.)

                      An empty space means the State does not use the mechanism.




    OEI-05-03-00061   S TAT E S ’ M O N I T O R I N G   OF   FOSTER CARE SUBGRANTEES: A DESCRIPTIVE REPORT   20
   A   P P E N D             I X ~             B                                                         S   T A T E           A

           State A: Characteristics of Program and Fiscal Monitoring Mechanisms
                                                                   Intended      Actual
               Monitoring Mechanism        Intended Coverage
                                                                  Frequency     Utilization
           Program Monitoring
                                                                              CPA                   Every 2 years             8/8
                            Licensing Site Visit
                                                                       Non-Mental Health RF            Annual                 2/2
                    Desk Review/Site Visit                               Mental Health RF           Every 2 years             6/6
                        Program Site Visit
                       Additional Site Visit
           Fiscal Monitoring
                              Single Audit
                                                                              CPA                   Every 2 years             8/8
                Independent Financial Audit
                                                                       Non-Mental Health RF            Annual                 2/2
                         Internal Fiscal Review
           CPA=Child Placement Agency                                                             Total Number of Sampled Subgrantees = 16
           RF=Residential Facility




Important Characteristics of State A
In State A, monitoring varies depending on subgrantee characteristics. All child placement
agencies are monitored by one department. This department also monitors residential facilities
with no mental health services. A second department monitors residential facilities with mental
health services.

Child placement agencies and non-mental health residential facilities receive regular licensing
visits that focus on compliance but also incorporate some program site visit components. These
licensing visits are conducted by program monitoring staff. Residential facilities with mental
health services receive a licensing site visit initially and then every 2 years receive a desk review
to renew their license. The row in the table marked “Desk Review/Site Visit” reflects this.

As evidenced in the table, residential facilities with mental health services do not receive any
form of fiscal monitoring for Title IV-E funds. As noted, these same subgrantees do not receive
any licensing site visits after the initial visit.




       OEI-05-03-00061        S TAT E S ’ M O N I T O R I N G   OF   FOSTER CARE SUBGRANTEES: A DESCRIPTIVE REPORT                  21
   A   P P E N D            I X ~              B                                                         S     T A T E         B


           State B: Characteristics of Program and Fiscal Monitoring Mechanisms
                                                                 Intended       Actual
               Monitoring Mechanism       Intended Coverage
                                                                Frequency     Utilization
           Program Monitoring
                       Licensing Site Visit                                     All               Every 2 years            17/19
                        Program Site Visit                                      All            Every 12-18 months           8/19
                       Additional Site Visit
           Fiscal Monitoring
                               Single Audit                             New Subgrantees               Annual                 4/4
               Independent Financial Audit                              Old* Subgrantees              Annual                7/15
                    Internal Fiscal Review
           * Subgrantees that have received grants                                              Total Number of Sampled Subgrantees = 19
           from the State for over 1 year.




Important Characteristics of State B
For their first year of contracting with the State, subgrantees must submit a Single Audit. The
State requires independent financial audits of all other subgrantees. State staff set rates for each
new subgrantee using the subgrantee’s Single Audit. The State legislature has assumed the
responsibility of setting any rate increases after the first year. This State also requires Single
Audits for a handful of subgrantees whose rates are set by a competitive bidding process. These
subgrantees offer certain difficult-to-provide services.

Historically, the annual audit was an integral part of setting the rates the State paid for foster
care services. However, ever since the State legislature decided to set State foster care rate
increases, the rate-setting office has had little use for the audits. They continue to receive and
track the submission of the audits due to historical precedence. They have also maintained the
responsibility of reviewing the audits although they only do so to determine if there are basic
solvency issues that would warrant contract termination.

Although staff intends to conduct licensing visits every 2 years and program site visits every 12 to
18 months, our review found that not all subgrantees received these visits. The State used to
conduct visits annually but has begun to conduct them less frequently due to a reduction in staff.




       OEI-05-03-00061        S TAT E S ’ M O N I T O R I N G   OF   FOSTER CARE SUBGRANTEES: A DESCRIPTIVE REPORT                  22
   A   P P E N D           I X ~             B                                                         S   T A T E            C
  State C, County 1: Characteristics of Program and Fiscal Monitoring Mechanisms
                                                                 Intended        Actual
        Monitoring Mechanism           Intended Coverage
                                                                Frequency       Utilization
  Program Monitoring
           State Licensing Site Visit                                       All                        Annual                 3/8
                                                                                             Full visit - every 3 years
                                                                           CPA                                                 4/4
               County Program Site Visit                                                      Partial visit - annual
                                                                            RF                         Annual                 4/4
            County Additional Site Visit                                    RF                       Quarterly                4/4
  Fiscal Monitoring
                            Single Audit
     State Independent Financial Audit           All                                                  Annual                  8/8
           State Internal Fiscal Review Randomly Selected RF                                          Annual                  0/0
  CPA = Child Placement Agencies      RF = Residential Facilities                                Total Number of Sampled Subgrantees = 8


  State C, County 2: Characteristics of Program and Fiscal Monitoring Mechanisms
                                                               Intended        Actual
        Monitoring Mechanism            Intended Coverage
                                                              Frequency       Utilization
  Program Monitoring
           State Licensing Site Visit               All                                             Annual                 4/8
                                         Intensive Treatment CPA                                   Quarterly               1/1
               County Program Site Visit
                                                    RF                                              Annual                 4/4
                    Additional Site Visit
  Fiscal Monitoring
                            Single Audit
     State Independent Financial Audit                                       All                    Annual                 7/7
           State Internal Fiscal Review                            Randomly Selected RF             Annual                 0/0
  CPA = Child Placement Agencies      RF = Residential Facilities                            Total Number of Sampled Subgrantees = 8


Important Characteristics of State C
According to staff in both counties, monitoring resources focus on residential facilities because of
the direct, daily contact these facilities have with children in foster care. For County 1, this focus
on residential facilities translates into annual comprehensive site visits, as well as quarterly site
visits intended to provide both targeted monitoring and technical assistance.

Although this State is county-administered, State staff retain primary responsibility for licensing
and fiscal monitoring of all county subgrantees. We found evidence in both counties that State
staff were not licensing all subgrantees in a timely manner. The State used independent financial
audits to routinely monitor subgrantees’ fiscal performance, during the time period we reviewed.
In 2003, this State began monitoring subgrantees through Single Audits rather than independent
audits. The State also conducts internal fiscal reviews on a small number of randomly selected
residential facilities to ensure that services are provided commensurate with their assigned rate.

To supplement these reviews, County 1 conducts targeted fiscal audits on about a dozen poorly
performing subgrantees a year. Because this mechanism is only used in response to identified
problems, it is not reflected in the chart as one of the county’s primary monitoring mechanisms.

       OEI-05-03-00061      S TAT E S ’ M O N I T O R I N G   OF   FOSTER CARE SUBGRANTEES: A DESCRIPTIVE REPORT                     23
    A   P P E N D         I X ~             B                                                         S   T A T E            D

           State D: Characteristics of Program and Fiscal Monitoring Mechanisms
                                                               Intended        Actual
              Monitoring Mechanism       Intended Coverage
                                                              Frequency       Utilization
           Program Monitoring
                      Licensing Site Visit                                All               Every 2 years            15/15
                       Program Site Visit
                      Additional Site Visit
           Fiscal Monitoring
                              Single Audit
              Independent Financial Audit                                 All                   Annual               14/14
                   Internal Fiscal Review
                                                                                         Total Number of Sampled Subgrantees = 15

Important Characteristics of State D

State D’s fiscal monitoring includes Single Audits. However, since foster care funds are
misidentified as Social Services Block Grant funds, auditors do not review subgrantees’
compliance with Title IV-E requirements. Due to this error, these subgrantees’ Single Audits do
not provide a more comprehensive review of program funds than routine independent fiscal audits
would. Thus, the table indicated that subgrantees receive an independent financial audit and not
a Single Audit. This State supplements the financial audit by requiring auditors to submit
additional schedules and opinions on subgrantees’ financial position.

State D’s routine program monitoring consists solely of biennial licensing visits. Foster care
program monitoring staff in this State rely on a complex network of other oversight entities (such
as case workers, licensing staff, and fiscal monitoring staff) for referrals of problems with
particular subgrantees.




        OEI-05-03-00061    S TAT E S ’ M O N I T O R I N G   OF   FOSTER CARE SUBGRANTEES: A DESCRIPTIVE REPORT                  24
   A P P E N D I X ~ B                                                                                 S T A T E             E
     State E, County 1: Characteristics of Program and Fiscal Monitoring Mechanisms
                                            Intended            Intended        Actual
         Monitoring Mechanism
                                            Coverage           Frequency      Utilization
     Program Monitoring
             State Licensing Site Visit                                    All                      Annual                 8/8
            County Program Site Visit                                      All                      Annual                 8/8
                  Additional Site Visit
                      County Reports                                PBC Subgrantees               Monthly                  2/2
                      County Reports                                PBC Subgrantees             Twice a year               2/2
     Fiscal Monitoring
                                                               Subgrantees receiving
                   County Single Audit                          $300,000 or more in                 Annual                 1/1
                                                                   Federal funds
                                                          Subgrantees receiving less
       County Independent Financial
                                                           than $300,000 in Federal                 Annual                 7/7
                              Audit                                 funds
                 Internal Fiscal Review
    PBC Subgrantees = Subgrantees contracting under the County's                                Total Number of Sampled Subgrantees = 8
    Performance-Based Contracting System


     State E, County 2: Characteristics of Program and Fiscal Monitoring Mechanisms
                                            Intended            Intended        Actual
         Monitoring Mechanism
                                            Coverage           Frequency      Utilization
     Program Monitoring
             State Licensing Site Visit                                     All                     Annual                  8/8
            County Program Site Visit                                       All                    Quarterly                4/8
                  Additional Site Visit
     Fiscal Monitoring
                                                                   Subgrantees receiving
                    County Single Audit                             $300,000 or more in              Annual                 7/7
                                                                       Federal funds
           Independent Financial Audit
                Internal Fiscal Review
                                                                                                Total Number of Sampled Subgrantees = 8


Important Characteristics of State E
County 1 in State E uses performance-based contracting for child placement agencies that serve
more than 50 children. In addition to the county’s routine program monitoring, these subgrantees
must submit two reports related to their performance-based contracts.

All subgrantees in State E are subject to requirements for Single Audits. According to these
requirements, subgrantees receiving less than $300,000 in Federal funds are not required to
submit a Single Audit. (Since our review, OMB has raised this threshold to $500,000.) For
subgrantees subject to a Single Audit, County 1 requires auditors to submit additional schedules
and opinions on subgrantees’ financial position. For subgrantees receiving less than $300,000 in
Federal funds, County 1 requests that subgrantees submit a traditional independent fiscal audit.


      OEI-05-03-00061       S TAT E S ’ M O N I T O R I N G   OF   FOSTER CARE SUBGRANTEES: A DESCRIPTIVE REPORT                  25
   A   P P E N D              I X ~             B                                                          S    T A T E         F


       State F: Characteristics of Program and Fiscal Monitoring Mechanisms
                                                             Intended       Actual
           Monitoring Mechanism       Intended Coverage
                                                            Frequency      Utilization
       Program Monitoring
                  Licensing Site Visit                                      All               At least annual          13/16
               Desk Review/Site Visit                                       All                    Annual              16/16
                   Program Site Visit
                                                                 All except Emergency
                         Additional Site Visit                                                    Annual               15/15
                                                                        Shelters
       Fiscal Monitoring
                           Single Audit
           Independent Financial Audit
                Internal Fiscal Review                                      All                   Annual               16/16
                                                                                            Total Number of Sampled Subgrantees = 16




Important Characteristics of State F
State F has a unique approach to monitoring. The State uses one site visit that incorporates both
program monitoring and an internal fiscal review. Also, State F systematically varies its
monitoring practices based on an assessment of subgrantee risk. The State uses a risk-based
approach for most fiscal and program monitoring and assigns subgrantees a separate risk
designation for licensing site visits, program desk review/site visits, and internal fiscal reviews.
This State assesses about 100 different factors using three instruments to determine subgrantees’
risk designations. These factors range from the subgrantee’s level of internal controls to the
subgrantee’s history of noncompliance with requirements to the experience level of the
subgrantee’s key management staff. For program desk reviews/site visits, risk factors are
weighted according to their relative importance, and subgrantees are assigned risk designations
based on the aggregation of weighted risk “points.” The frequency and intensity of each
monitoring mechanism depends on a subgrantee’s risk designation.

While State F utilizes program desk reviews/site visits and internal fiscal reviews at 100 percent,
because the State uses a risk-based approach, not all selected subgrantees were actually visited.
All selected subgrantees were evaluated, using the risk assessment instruments, to determine
whether the subgrantee needed to be visited and the intensity of the monitoring during the visit.
For example, the risk assessment determines whether the subgrantee needs to have a program
site visit or a desk review. While all subgrantees’ risk levels were assessed, 10 subgrantees
actually received a program site visit, and 8 actually received a site visit including an internal
fiscal review.

All subgrantees, except emergency shelters, also receive an additional site visit. This additional
site visit determines the level of care a subgrantee is able to provide. The level of care the
subgrantee is authorized to provide dictates the rate it will receive per child.


       OEI-05-03-00061         S TAT E S ’ M O N I T O R I N G   OF   FOSTER CARE SUBGRANTEES: A DESCRIPTIVE REPORT                    26
∆
   A C K N O W L E D G M E N T S



                   This report was prepared under the direction of William Moran, Regional
                   Inspector General for Evaluation and Inspections in the Chicago regional
                   office. Other principal Office of Evaluation and Inspections staff who
                   contributed include:

                   Susan Otter, Team Leader
                   Ann Maxwell, Team Leader

                   Mara Siler-Price, Lead Analyst

                   Anna Fleming, Program Analyst

                   Laura Torres, Program Analyst

                   Sara Zuiderveen, Intern

                   Linda Hall, Program Specialist

                   Elise Stein, Director, Public Health and Human Services Branch

                   Technical Assistance

                   Barbara Tedesco, Mathematical Statistician




 OEI-05-03-00061   S TAT E S ’ M O N I T O R I N G   OF   FOSTER CARE SUBGRANTEES: A DESCRIPTIVE REPORT   27
∆
     E N D      N O T E S




                  1	   According to Administration for Children and Families (ACF)
                       estimates, 810,000 children spent some time in Title IV-E foster care
                       during Federal FY 2002. There were an estimated 534,000 children in
                       Title IV-E foster care on September 30, 2002. Retrieved
                       March 11, 2004 from:
                       www.acf.hhs.gov/programs/cb/dis/afcars/publications/afcars.htm.

                  2	   We use the term “subgrantee,” as opposed to terms that are commonly
                       used by States but have specific technical definitions in Federal grants
                       management requirements, such as “contractor” or “subrecipient.”

                  3	   Task Force members include staff from: the Office of Management and
                       Budget (OMB); the Departments of Health and Human Services (HHS),
                       Transportation, Agriculture, Education, Justice, Labor, and the Navy;
                       the Federal Emergency Management Agency; the National Science
                       Foundation; and the States of Louisiana and Texas.

                  4	   A 2002 Government Accountability Office (GAO) study, “Welfare
                       Reform: Federal Oversight of State and Local Contracting can be
                       Strengthened,” GAO-02-661, 2002, examined State and local agency
                       monitoring of subgrantees receiving Temporary Assistance for Needy
                       Families funds, and found that ACF staff were not aware of monitoring
                       problems identified in States’ Single Audit reports. These audit reports
                       cited weaknesses in States’ monitoring, including inadequate fiscal and
                       program monitoring of local contracting entities.

                       Congress has also expressed concern that the Health Resources and
                       Services Administration (HRSA) does not adequately monitor grantees’
                       oversight of their subgrantees. Consequently, in 2001, the Senate
                       Finance Committee requested that the Office of Inspector General
                       (OIG) review HRSA’s oversight of Ryan White CARE Act Title I and
                       Title II grantees and grantees’ oversight of their subgrantees.

                  5	   The National Survey of Child and Adolescent Well-Being (NSCAW)
                       found that at least 90 percent of States used subgrantees to provide
                       child placement and residential care that specifically includes
                       treatment. This study did not include other commonly used private
                       residential facilities, such as group homes, residential schools, or




OEI-05-03-00061   S TAT E S ’ M O N I T O R I N G   OF   FOSTER CARE SUBGRANTEES: A DESCRIPTIVE REPORT	   28
                       emergency shelters in their survey. Further, there has been little
                       research into the extent to which States use subgrantees: whether
                       States use subgrantees to serve a small subgroup of the State’s foster
                       children or for the majority of foster children in the State. The NSCAW
                       reports that 70 percent of States use subgrantees statewide to provide
                       residential treatment services, and an additional 26 percent use
                       subgrantees “in some counties.” The NSCAW local agency survey also
                       found that using subgrantees to provide foster care services is more
                       common in urban areas, larger counties, larger agencies, and State-
                       administered foster care systems. Department of Health and Human
                       Services, Administration for Children, Youth, and Families, “National
                       Survey of Child and Adolescent Well-Being: State Child Welfare
                       Agency Survey: Report” and “National Survey of Child and Adolescent
                       Well-Being: Local Child Welfare Agency Survey: Report,” Washington,
                       2001.

                  6	   “Petro Issues Montgomery County Foster Care Audit,” Ohio Auditor of
                       State News Release. February 10, 2000.

                  7	   There are two sets of HHS regulations that provide Uniform
                       Administrative Requirements: 45 CFR Part 74, which typically applies
                       to awards to nongovernmental entities, and 45 CFR Part 92, which
                       typically applies to awards to governmental entities. Until very
                       recently, States receiving Title IV-E funds were subject to the
                       requirements under 45 CFR Part 74, which are very similar to those
                       under 45 CFR Part 92. Recently, HHS re-designated Title IV-E State
                       grants to be subject to 45 CFR Part 92.

                  8	   OMB Circular A-133, §__.400(d) states that “. . . a pass-through entity
                       shall perform the following for the Federal awards it makes:
                       . . . (3) Monitor the activities of subrecipients as necessary to ensure
                       that Federal awards are used for authorized purposes in compliance
                       with laws, regulations, and the provisions of contracts or grant
                       agreements and that performance goals are achieved.”

                  9	   This State also requires Single Audits for a handful of subgrantees that
                       have their rates set by competitively bidding to provide certain
                       difficult-to-provide services.

                  10   45 CFR § 74.81.




OEI-05-03-00061   S TAT E S ’ M O N I T O R I N G   OF   FOSTER CARE SUBGRANTEES: A DESCRIPTIVE REPORT	   29
